March 22, 2002

JON M. STEELE
VICE PRESIDENT, NORTHEAST AREA OPERATIONS

ELIZABETH A. JOHNSON
MANAGER, MAINE DISTRICT

SUBJECT:	 Audit Report – Sexual Harassment Prevention Measures in the Maine
          District (Report Number LH-AR-02-002)

This report presents the results of our audit of sexual harassment prevention measures
in the Maine District (Project Number 01JA011LB000). Our overall objective was to
determine if the Maine District had adequate policies and procedures in place to prevent
sexual harassment in the workplace and to effectively address sexual harassment
complaints. The audit was initiated based on a March 26, 2001, letter from a member of
Congress requesting the Office of Inspector General (OIG) to consider a review of
sexual harassment prevention measures in the Maine District.

The audit revealed that although the district had adequate policies and procedures to
prevent sexual harassment and effectively addressed related complaints in the Maine
District, managers did not always comply with the procedures. Specifically, managers
did not provide documentation that all employees had received sexual harassment
awareness and prevention training, did not document that all sexual harassment
complaints had been investigated, and had not taken preventive measures when
findings were inconclusive in sexual harassment cases. Additionally, we found that
some managers involved in sexual harassment cases received incentive pay under the
Postal Service’s Pay for Performance Program.

We recommended that Postal Service managers establish controls to ensure that:
sexual harassment awareness training is provided to all employees and training records
are complete; sexual harassment investigations are prompt and fully documented in
case files; employees directly involved in cases where the evidence is inconclusive
receive sexual harassment training and monitoring; and employees disciplined for
sexual harassment be considered for exclusion from the Pay for Performance Program.
Management’s comments were generally responsive to our report and actions taken or
proposed should address the issues identified in the report. Management’s comments
and our evaluation of these comments are included in this report. While managements’
comments are generally responsive, we are concerned at the amount of information that
was provided after we completed our work. If this information had been provided
sooner we would have been able to include all the relevant facts which would have
facilitated an earlier issuance of this report.

The OIG considers recommendations1 through 4 significant and, therefore, requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed. If you have any questions, please contact Chris
Nicoloff, director, Labor Management, at (214) 775-9114 or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Core Operations

Attachment

cc: Suzanne F. Medvidovich
    Nancy F. James
    Anthony J. Vegliante
    Susan M. Duchek
Sexual Harassment Prevention Measures                                     LH-AR-02-002
 in the Maine District


                                 TABLE OF CONTENTS
 Executive Summary
                                                            i

 Part I


 Introduction
                                                                1

    Background                                                                1

    Objectives, Scope and Methodology                                         1

    Prior Audit Coverage                                                      2


 Part II


 Audit Results

    Measures to Prevent Sexual Harassment Need Improvement                    3

      Policies and Procedures Were Adequate                                   3

      Documentation Lacking to Support that All Sexual Harassment             5

       Training Had Occurred

      Recommendation                                                          6

      Management’s Comments                                                   6

      Evaluation of Management’s Comments                                     6


           Effectiveness of Investigations Was Questionable                   7

           Recommendation                                                     9

           Management’s Comments                                              9

           Evaluation of Management’s Comments                                9


           Employees Responsible in Sexual Harassment Cases Disciplined       11


           Preventive Measures Needed When Findings Are Inconclusive          12

           Recommendation                                                     13

           Management’s Comments                                              13

           Evaluation of Management’s Comments                                14


           Disciplined Managers Received Pay for Performance                  15

           Recommendation                                                     15

           Management’s Comments                                              16

           Evaluation of Management’s Comments                                16


    Conclusions                                                               17


    Overall Management’s Comments                                             17





                                        Restricted Information
Sexual Harassment Prevention Measures                            LH-AR-02-002
 in the Maine District



 Appendix A. Objectives, Scope and Methodology                       18

 Appendix B. Management’s Comments                                   20




                                        Restricted Information
Sexual Harassment Prevention Measures                                                              LH-AR-02-002
 in the Maine District


                                      EXECUTIVE SUMMARY
    Introduction                  This report presents the results of our audit of sexual
                                  harassment prevention measures in the Maine District,
                                  located in the Northeast Area. Since 1999, the Postal
                                  Service has paid over $1.3 million for six sexual harassment
                                  judgments and settlements in the Maine District. The Maine
                                  District was chosen as our survey site for a nationwide audit
                                  as a result of a request from a member of Congress. Our
                                  overall objective was to determine if the Maine District had
                                  implemented adequate policies and procedures to prevent
                                  sexual harassment in the workplace and to effectively
                                  address sexual harassment complaints.

    Results in Brief	             We concluded that the Postal Service had adequate policies
                                  and procedures in place to prevent sexual harassment and
                                  effectively address related complaints in the Maine District.
                                  In addition, the district manager provided us with information
                                  about the initiatives taken in the district regarding sexual
                                  harassment awareness and education. She stated these
                                  initiatives were taken to prevent sexual harassment and
                                  mitigate potential future liabilities after a jury decision
                                  awarded damages in 2001.

                                  We also found that employees responsible for sexual
                                  harassment were disciplined. However, managers1 did not
                                  always follow the policies and procedures in the areas of
                                  training, investigations, and preventive measures.
                                  Specifically, managers could not provide documentation that
                                  all employees had received sexual harassment awareness
                                  and prevention training, did not document all investigations
                                  of sexual harassment complaints, and had not taken
                                  preventive measures when findings were inconclusive in
                                  sexual harassment cases. We also found that some
                                  managers involved in sexual harassment cases received
                                  Pay for Performance Program2 incentive awards.

                                  Sexual harassment can increase stress, reduce
                                  management’s credibility with employees, reduce employee


1
  The term “managers” includes supervisors, plant and facility managers, Human Resources manager, and the district
manager.
2
  The Pay for Performance Program, formerly referred to as the Economic Value Added Program, is an incentive
award program for nonbargaining employees. The amount of money received by each employee is based on a group
achievement of performance targets and financial measurements.



                                                        i
                                             Restricted Information
Sexual Harassment Prevention Measures                                              LH-AR-02-002
 in the Maine District



                             morale and productivity and can result in financial liability to
                             the Postal Service.

                             Full compliance with policies and procedures should help
                             prevent sexual harassment in the Maine District and should
                             help mitigate any liability for sexual harassment that might
                             occur.

 Summary of                  We recommended that Postal Service managers establish
 Recommendations             controls to ensure that: sexual harassment awareness
                             training is provided to all employees and training records
                             are complete; sexual harassment investigations are prompt
                             and fully documented in case files; employees directly
                             involved in cases where the evidence is inconclusive
                             receive sexual harassment training and monitoring; and
                             employees disciplined for sexual harassment be considered
                             for exclusion from the Pay for Performance Program.

 Summary of                  Management generally agreed with our recommendations to
 Management’s                prevent sexual harassment in the workplace and to
 Comments                    effectively address sexual harassment complaints. They
                             agreed to ensure sexual harassment awareness training is
                             provided to all employees and training records are
                             complete; sexual harassment investigations are prompt and
                             fully documented in the case files; and employees
                             disciplined for sexual harassment be considered for
                             exclusion from the Pay for Performance Program.
                             Management did not agree that employees directly involved
                             in sexual harassment cases where the evidence is
                             inconclusive receive sexual harassment training and
                             monitoring. Management stated the recommendation is
                             inconsistent with Postal Service policy. However,
                             management satisfied the intent our recommendation by
                             agreeing to notify proper officials at Postal Service
                             Headquarters and requesting that its policies be reviewed.
                             Management’s comments, in their entirety, are included in
                             Appendix B of this report.

 Overall Evaluation of       Management’s actions taken or planned are responsive to

 Management’s                the recommendations in this report.

 Comments





                                                   ii
                                        Restricted Information
Sexual Harassment Prevention Measures                                                                     LH-AR-02-002
 in the Maine District


                                              INTRODUCTION
    Background                       Since 1999, the Postal Service has paid over $1.3 million for
                                     six sexual harassment judgments and settlements in the
                                     Maine District. Sexual harassment is defined as unwelcome
                                     sexual advances, requests for sexual favors, and other
                                     verbal or physical conduct of a sexual nature.

                                     In 1980, the Equal Employment Opportunity Commission
                                     declared sexual harassment a violation of the Civil Rights
                                     Act of 1964, and issued guidance regarding employer
                                     liability for harassment by supervisors. The Postal Service
                                     issued its first sexual harassment policy statement on
                                     April 10, 1980, declaring sexual harassment as
                                     unacceptable conduct. In a continued effort to address
                                     sexual harassment, it also issued policy statements,
                                     memorandums, posters, and guidelines to employees
                                     addressing the legal principles defining sexual harassment
                                     and the Postal Service’s position that sexual harassment
                                     would not be tolerated in the workplace.

                                     In a March 26, 2001, letter to the Office of Inspector General
                                     (OIG), a member of Congress advised that the Northeast
                                     Area Maine District had been sued five times since 1998 for
                                     sexual harassment and asked the OIG to consider a review
                                     of the five cases3 in our comprehensive review of sexual
                                     harassment in the Postal Service. The member of
                                     Congress wanted a review because local officials were
                                     allegedly slow in addressing sexual harassment issues in
                                     these five cases.

    Objectives, Scope
               Our overall objective was to determine if the Maine District
    and Methodology
                 had implemented adequate policies and procedures to
                                     prevent and effectively address sexual harassment
                                     complaints.

                                     We selected the Maine District to conduct our survey for
                                     national work on sexual harassment. The objectives
                                     identified in this report were developed during our survey in
                                     the Maine District. Our objectives, scope, and methodology
                                     are discussed in Appendix A.


3
  Four of the five civil cases referred were filed since 1998 and were included in our review. The fifth case was filed
in 1996 and not included in our scope because it was not originally a sexual harassment case.



                                                           1
                                                Restricted Information
Sexual Harassment Prevention Measures                                           LH-AR-02-002
 in the Maine District



                             This audit was conducted from June 2001 through
                             March 2002 in accordance with generally accepted
                             government auditing standards and included such tests of
                             internal controls as were considered necessary under the
                             circumstances. We discussed our conclusions and
                             observations with appropriate management officials and
                             included their comments where appropriate.

 Prior Audit Coverage	       The March 31, 1999, OIG report, Follow-up on USPS
                             Recommendations to Investigate Sexual Harassment
                             Allegations and to Reassign a Supervisor from His Position
                             of Authority (Garden Grove Post Office), Report Number
                             LR-AR-99-008, found that Garden Grove and Santa Ana
                             District officials had not taken action to investigate some
                             sexual harassment allegations. The OIG recommended the
                             Pacific Area, vice president, investigate and report on the
                             results of the sexual harassment investigations to the Labor
                             Relations and Human Resources vice presidents, and the
                             OIG and determine why allegations of sexual harassment
                             were not investigated. We also recommended that the area
                             vice president take appropriate action to address the
                             allegations.

                             Management responded with an investigative report that
                             concluded there was no evidence to support sexual
                             harassment allegations were made or that the supervisor’s
                             behavior created a hostile work environment.

                             Management’s investigative report was responsive to the
                             OIG recommendation. The OIG did not agree, however,
                             that the supervisor’s behavior did not create a hostile work
                             environment.




                                                   2
                                        Restricted Information
Sexual Harassment Prevention Measures                                           LH-AR-02-002
 in the Maine District


                                        AUDIT RESULTS
 Measures to Prevent
        The audit revealed that although the Maine District had
 Sexual Harassment
          adequate policies and procedures to prevent and effectively
 Need Improvement
           address sexual harassment complaints, district managers
                             did not always comply with the policies and procedures
                             related to training, investigations, and discipline.

 Policies and                District policies and procedures were adequate and
 Procedures Were             included several requirements that were recommended by
 Adequate                    the Equal Employment Opportunity Commission for an
                             effective sexual harassment program. Policies and
                             procedures included:

                                 •	 A requirement that all employees be trained.
                                 •	 A requirement to disseminate guidance to managers
                                    and employees on how to address and prevent
                                    sexual harassment.
                                 •	 A requirement that employees who engage in sexual
                                    harassment be subject to disciplinary action.

                             In addition, the district manager provided us with information
                             about the initiatives taken in the district regarding sexual
                             harassment awareness and education. She stated these
                             initiatives were taken to prevent sexual harassment and
                             mitigate potential future liabilities after a jury decision
                             awarded damages in 2001. For example, she stated that
                             the requirement for all employees to be trained had been
                             augmented with personal communications, such as round-
                             table discussions, town-hall meetings and other informal
                             sessions with employees. In addition, she stated that a
                             letter focusing on issues relating to sexual harassment
                             awareness and prevention had been periodically sent to
                             employees at their home mailing address. She said these
                             letters included messages from the Northeast Area vice
                             president. Furthermore, the manager stated that she had
                             also invited union and management association leadership
                             to directly share with the district, concerns or reports of
                             sexual harassment that they might receive.

                             The district manager also stated that to ensure a consistent
                             approach in responding to allegations of sexual harassment,
                             a standard operating procedure was developed and
                             distributed as guidance for supervisors, managers and
                             postmasters. She added that oversight responsibility of



                                                   3
                                        Restricted Information
Sexual Harassment Prevention Measures                                                                  LH-AR-02-002
 in the Maine District


                                    management’s response to allegations of sexual
                                    harassment had been assigned to the manager, Human
                                    Resources.

                                    Finally, Northeast Area officials stated that out of
                                    85 performance clusters in the Postal Service, the Maine
                                    District tied for the second highest percentage of negative
                                    (favorable) responses on the Voice of Employee Survey4 in
                                    fiscal year (FY) 2001 for the question “In the last 12 months,
                                    have you personally been sexually harassed by a Postal
                                    Service employee?”

                                    In addition to these initiatives, at two Maine District postal
                                    facilities,5 we observed posters displayed in employee work
                                    areas that described the Postal Service’s position that
                                    sexual harassment would not be tolerated in the workplace.
                                    We also noted that a toll-free telephone number and an
                                    e-mail address were posted for employees to obtain
                                    information about sexual harassment.

                                    These initiatives, policies, and procedures should enable
                                    managers to identify and prevent behavior in the workplace
                                    that could constitute sexual harassment. They should also
                                    allow managers to respond promptly and effectively to
                                    employees who come forward with complaints, thus
                                    mitigating liability and costs.




4
  The Voice of the Employee survey is a data collection instrument that the Postal Service has established to help

improve workplace relationships and ensure that all employees are treated with fairness, feel safe in their workplace,

have opportunities to participate and take pride in being Postal Service employees.

5
  The OIG visited the Biddeford/Saco Post Office and Portland Processing and Distribution Center because five of the

six monetary settlements for sexual harassment claims occurred at these two facilities.




                                                          4
                                               Restricted Information
Sexual Harassment Prevention Measures                                                                 LH-AR-02-002
 in the Maine District



    Documentation Lacking          While policies and procedures to prevent and address
    to Support That All            sexual harassment complaints were adequate, district
    Sexual Harassment              managers did not provide documentation to support their
    Training Had Occurred          statement that all employees received training in
                                   understanding and preventing sexual harassment. Equal
                                   Employment Opportunity Commission Enforcement
                                   Guidance: Vicarious Employer Liability for Unlawful
                                   Harassment by Supervisors, states training is an essential
                                   part of an agency’s sexual harassment prevention program.
                                   Postal Service Headquarters did not mandate sexual
                                   harassment training in FY 2001, however, the Maine District
                                   required that all employees attend a 1-hour training course
                                   by June 1, 2001. To ensure compliance, the Maine District
                                   required employee signatures on sign-in sheets to certify
                                   attendance.

                                   We found that as of August 30, 2001, there was no
                                   documentation that 761 of the approximately
                                   1,680 employees at six6 district facilities had received the
                                   required training. According to a district official, employees
                                   had received the training; however, training sign-in
                                   documents used to enter information into the database were
                                   misplaced, thus the training records were incomplete. The
                                   official told us the training information would be entered into
                                   the database and updated information would be sent to our
                                   office. On January 8, 2002, the district provided additional
                                   training documentation, however, it was still lacking for
                                   approximately 311 employees at the six facilities.7 The
                                   district training manager told us the process of entering all
                                   employees into the database who had received the training
                                   is still ongoing.

                                   With documented training records, the district could ensure
                                   that all employees receive the required training.




6
  The training records at six facilities: Biddeford/Saco Post Office, Portland Processing and Distribution Center,

Eastern Maine Processing and Distribution Center, Camden Post Office, Portland Post Office, and Ellsworth Post

Office; were reviewed because these were the facilities where the majority of the formal and informal sexual

harassment complaints were filed.

7
  We followed up with headquarters and Maine District officials on November 13, November 28, December 4, 2001,

January 3, and January 14, 2002, to obtain this information.




                                                         5
                                              Restricted Information
Sexual Harassment Prevention Measures                                              LH-AR-02-002
 in the Maine District




 Recommendation
             We recommended the vice president, Northeast Area
                             Operations, direct the manager, Maine District, to implement
                             controls to improve the effectiveness of the sexual
                             harassment prevention program. Specifically, establish
                             controls to ensure:

                                        1.	 All employees receive the required sexual
                                            harassment training and training records are
                                            complete.

 Management’s                Management agreed with the finding and recommendation
 Comments                    and will deliver sexual harassment awareness training and
                             complete training records for employees by September 8,
                             2002. Management stated however, that since the sexual
                             harassment training was a voluntary undertaking by the
                             district, it was “de minimis,” that the training records for a
                             small percentage of the 4,700 employees in the Maine
                             District were not available. They also stated we did not
                             report that the Maine District was in full compliance with
                             headquarters’ training requirements each year since
                             FY 1997.

 Evaluation of               Management’s planned actions to the recommendation are
 Management’s                responsive, and should resolve the issues presented in the
 Comments                    report. Regarding management’s statement that the
                             missing training records was “de minimis,” as stated in the
                             report, we reviewed training documentation for employees
                             at six facilities, which represented approximately
                             1,680 employees, and not the entire Maine District. We
                             believe documentation is the support needed to ensure that
                             all employees received the required training. The
                             importance of this documentation was evident by the district
                             manager’s requirement that employee signatures appear on
                             sign-in sheets to certify their attendance.

                             Regarding management’s statement that we did not report
                             the Maine District’s compliance with headquarters training
                             requirements for past fiscal years, we did not review
                             compliance for those years. We focused our review on
                             FY 2001 because it was the most current year and showed
                             the Maine District’s commitment to providing employees the
                             ongoing sexual harassment training that should be provided
                             to all employees.



                                                    6
                                         Restricted Information
Sexual Harassment Prevention Measures                                                                   LH-AR-02-002
 in the Maine District



    Effectiveness of                The Maine District did not ensure that all sexual harassment
    Investigations Was              investigations were effective. Equal Employment
    Questionable                    Opportunity Commission guidelines recommend that an
                                    effective investigation is a prompt, thorough, and impartial
                                    review of sexual harassment complaints.

                                    These guidelines and Postal Service policy require
                                    managers to act quickly and investigate all allegations, as
                                    well as develop detailed evidence of the circumstances and
                                    nature of the complaints. Additionally, Postal Service
                                    guidelines state that some complaints can be resolved
                                    simply and directly between the parties without the need for
                                    a formal written record, but further requires anything
                                    considered serious be documented.

                                    Our review of 168 formal and informal9 sexual harassment
                                    complaints filed in the Maine District for the period
                                    January 1, 1996, to July 31, 2001, found that
                                    eight complaints had been effectively investigated, the
                                    effectiveness of seven investigations was questionable, and
                                    in one case, the employee complained directly to the Equal
                                    Employment Opportunity counselor and requested
                                    confidentiality. Therefore, management could not directly
                                    investigate the complaint.

                                    For the eight cases10 that we found were effectively
                                    investigated, the Postal Service did not pay any monetary
                                    damages. One case file contained information showing the
                                    facility manager responded within 24 hours of the allegation
                                    and the Inspection Service conducted a prompt
                                    investigation, which resulted in resolution of the complaint.
                                    We believe the prompt response and documentation of the
                                    investigation by the facility manager may have contributed
                                    to resolution of the complaint before it reached the formal
                                    process.

                                    In seven cases we determined the effectiveness of the
                                    investigations was questionable. Although we were unable
                                    to determine whether the effectiveness would have
8
  Four of the five civil cases referred to in the member of Congress March 26, 2001, letter to the OIG were included in
the 16 formal and informal sexual harassment cases reviewed in the Maine District. The fifth case was not included
in our scope because it was not originally a sexual harassment case.
9
  The term “informal” complaint refers to complaints not filed in the Equal Employment Opportunity process.
10
   For three of these cases, documentation was not available during our fieldwork in June and July 2001, but was
later provided to us in February 2002.



                                                          7
                                               Restricted Information
Sexual Harassment Prevention Measures                                            LH-AR-02-002
 in the Maine District


                             impacted monetary damages, we noted the Postal Service
                             paid monetary damages in six of the cases. We found in
                             two cases, the investigations were not prompt because they
                             were not investigated at the facility level. Information was
                             provided that indicated that once the district was notified of
                             the complaints, a prompt investigation was conducted. In
                             the remaining five cases, there was no evidence of a
                             documented investigation. Two cases were supported by
                             an affidavit that investigations had been conducted in
                             conjunction with the Equal Employment Opportunity
                             counselor. However there was no evidence in the case file
                             to show that the investigations were prompt, thorough, or
                             impartial. In two other cases, investigations were not
                             performed because the complainants would not cooperate
                             or had left the agency. In the final case, officials said the
                             incident was considered minor and did not require an
                             investigation.

                             We believe because the Postal Service has a duty to
                             prevent and correct sexual harassment, it should have
                             conducted investigations even though the complainants
                             would not cooperate or were not available. Regarding the
                             case where the Postal Service claims the incident was
                             minor and did not require an investigation; Equal
                             Employment Opportunity Commission guidance provides
                             that an effective complaint process requires the employer to
                             investigate employee complaints. In addition, the guidance
                             states that reasonable care in preventing and correcting
                             harassment requires an employer to instruct all supervisors
                             to report complaints of harassment to appropriate officials.

                             Ensuring that managers promptly investigate all sexual
                             harassment complaints and fully document case files, would
                             assist the Postal Service in avoiding or reducing liability.
                             This documentation could also be used to show the Postal
                             Service exercised reasonable care to prevent and promptly
                             correct, any harassing behavior.




                                                   8
                                        Restricted Information
Sexual Harassment Prevention Measures                                             LH-AR-02-002
 in the Maine District




 Recommendation
             We recommended the vice president, Northeast Area
                             Operations, direct the manager, Maine District, to implement
                             controls to improve the effectiveness of the sexual
                             harassment prevention program. Specifically, establish
                             controls to ensure:

                                        2.	 Managers promptly investigate all sexual
                                            harassment complaints and fully document case
                                            files.

 Management’s                Management agreed in part with the finding and agreed with
 Comments                    the recommendation. Management stated that it believed
                             an effective investigation was one that produced sufficient,
                             timely information to take appropriate corrective measures
                             or close the matter. Management stated that in three of the
                             seven cases, corrective measures were taken when
                             settlements, including the payment of damages, were
                             reached as a result of investigative findings. Management
                             did not agree that some documentation was not made
                             available to the audit team during their site visits in
                             June and July 2001. They said, however, there was no way
                             to prove whether it was, or was not.

                             Management agreed with the recommendation and
                             provided that in 1999, the Northeast Area developed and
                             put in place a formal management investigation process to
                             respond quickly to any claims of sexual harassment, and
                             that the Maine District complies with this process.
                             Management also stated that Postal Service guidelines
                             allow that some matters can be resolved simply and directly
                             between the parties without a formal written record. They
                             said that in accordance with this policy, all matters of
                             alleged sexual harassment will be fully documented,
                             however, not all complaints would result in a full written
                             record.

 Evaluation of               Management’s implemented and planned actions are
 Management’s                responsive to the recommendation and should resolve the
 Comments                    issues presented in the report. We agree with management
                             that an effective investigation is one that produces sufficient,
                             timely information to take appropriate action or close the




                                                    9
                                         Restricted Information
Sexual Harassment Prevention Measures                                          LH-AR-02-002
 in the Maine District



                             matter. We do not agree, however, that the payment of
                             monetary damages is a corrective measure to prevent
                             sexual harassment. We believe that early resolution in
                             these matters is the best method to resolve a sexual
                             harassment complaint and avoid financial liability to the
                             Postal Service. In the seven cases where we determined
                             the effectiveness of investigations was questionable, we
                             found early resolution did not occur because investigations
                             were not timely or were lacking the documentation to
                             support that a timely or sufficient investigation had been
                             conducted.

                             We also disagree with management’s comment that all
                             documentation was made available to the audit team during
                             their site visits in June and July 2001. Documented
                             workpapers of discussions with agency officials, as well as
                             detailed reviews of case files, indicate the information was
                             not available.




                                                  10
                                        Restricted Information
Sexual Harassment Prevention Measures                                                                  LH-AR-02-002
 in the Maine District



 Employees                         We found the Maine District disciplined employees
 Responsible in Sexual             responsible in sexual harassment cases. Equal Employment
 Harassment Cases                  Opportunity Commission 1990 and 1999 guidelines
 Disciplined                       recommend the employer take immediate and appropriate
                                   corrective action, including discipline, when sexual
                                   harassment has occurred. Postal Service policy states
                                   employees who engage in sexual harassment will be
                                   subject to disciplinary action, up to and including removal.

                                   Our review of formal and informal sexual harassment
                                   complaints filed in the Maine District disclosed that sexual
                                   harassment in five cases was substantiated11 and
                                   11 employees were involved. In four of the cases, we found
                                   discipline was taken against seven of the eight employees
                                   involved. The disciplinary action ranged from an official
                                   discussion to a reduction in grade and pay. Discipline was
                                   not taken against one employee because he was on
                                   disability leave and subsequently retired.




11
  Of the five cases, one case was substantiated in civil court, and the four remaining cases were substantiated by the
Postal Service’s internal process.



                                                        11
                                              Restricted Information
Sexual Harassment Prevention Measures                                                               LH-AR-02-002
 in the Maine District



 Preventive Measures  In the fifth case, preventive measures were not taken
 Needed When Findings against any of the three employees directly involved in the
 are Inconclusive     case, even though the jury found in favor of the complainant
                      and awarded $1 million to the complainant.12 Equal
                      Employment Opportunity Commission 1999 guidelines state
                      that when the evidence against an alleged harasser is
                      “inconclusive,” an employer should take preventive
                      measures such as training and monitoring. Postal Service
                      policy does not directly address the preventive measures to
                      be taken when evidence of sexual harassment is
                      inconclusive. However, Postal Service policy does define
                      training as preventive measures for ensuring managers are
                      aware of their role and responsibilities. The district Human
                      Resources manager stated that no action was taken against
                      the three employees because the jury’s verdict did not
                      enable management to identify “which, if any,” employee or
                      supervisor was the wrongdoer. He also stated discipline
                      imposed “long after” the misconduct would not meet the
                      timeliness principles of discipline that would be enforced by
                      the Merit Systems Protection Board.13 While we agree
                      discipline is most effective when it is timely, the Merit
                      Systems Protection Board does not have strict guidelines
                      regarding timeliness of discipline issued for misconduct.

                                   According to the district manager, the three employees
                                   received the required sexual harassment training provided
                                   to all employees. For example, during fiscal years 2000 and
                                   2001 two of the three employees received 1-hour of sexual
                                   harassment training for each fiscal year. These same two
                                   employees also received a 4-hour course provided to
                                   managers. The third employee was on extended leave
                                   since November 1999 and had not received any sexual
                                   harassment training from September 1999 until his leave of
                                   absence.

                                   Consistent with Equal Employment Opportunity Commission
                                   guidelines, we believe, as a preventive measure, refresher
                                   training could and should have been provided as soon as
                                   management became aware that the employees’ had been
                                   directly involved in an Equal Employment Opportunity case.
                                   Such training would have ensured that the employees were

12
  The Postal Service later settled the case for $625,000.

13
  The Merit Systems Protection Board was established by the Civil Service Reform Act of 1978. It is an independent,

quasi-judicial agency that serves as the guardian of the federal merit systems.




                                                       12
                                             Restricted Information
Sexual Harassment Prevention Measures                                               LH-AR-02-002
 in the Maine District


                             aware of their responsibilities regarding sexual harassment
                             in the workplace. In addition, it might have enabled the
                             Postal Service to raise an affirmative defense in the sexual
                             harassment lawsuit. Specifically, Equal Employment
                             Opportunity Commission guidance states that an employer
                             is always liable for a supervisor’s harassment if it culminates
                             in a tangible employment action. It further states, however,
                             that when it does not, the employer may be able to avoid
                             liability or limit damages by establishing an affirmative
                             defense that includes two necessary elements:

                                 (a)      The employer exercised reasonable care to
                                          prevent and correct promptly any harassing
                                          behavior.

                                 (b)      The employee unreasonably failed to take
                                          advantage of any preventive or corrective
                                          opportunities provided by the employer or to avoid
                                          harm otherwise.

 Recommendation
             We recommended the vice president, Northeast Area
                             Operations, direct the manager, Maine District, to implement
                             controls to improve the effectiveness of the sexual
                             harassment prevention program. Specifically, establish
                             controls to ensure:

                                        3.	 Sexual harassment training and monitoring is
                                            required for those employees directly involved in
                                            cases where the evidence is inconclusive that
                                            sexual harassment occurred.

 Management’s                Management agreed in part with the finding and disagreed
 Comments                    with the recommendation. Management agreed that
                             employees directly involved in incidents of sexual
                             harassment should be subject to appropriate measures.
                             Management also acknowledged that the Postal Service
                             was found liable in the case described in the report,
                             however, they stated that no specific evidence of sexual
                             harassment by any one individual was provided by the jury
                             verdict, nor was there such evidence provided during
                             discovery. Management further stated that two of the
                             individuals associated with the case described in the report
                             received additional sexual harassment training in FY 2001
                             as required by the district manager’s training initiative.




                                                   13
                                         Restricted Information
Sexual Harassment Prevention Measures                                           LH-AR-02-002
 in the Maine District



                             Management disagreed with the recommendation that
                             sexual harassment training and monitoring should be
                             required for those employees directly involved in cases
                             where evidence is inconclusive that sexual harassment
                             occurred. They stated the recommendation was
                             inconsistent with Postal Service guidelines. Management
                             agreed, however, that following an investigation of sexual
                             harassment, management would evaluate the evidence and
                             take appropriate action, including training and monitoring.

                             Management also stated that since their disagreement with
                             this recommendation centered around a difference between
                             Postal Service policy and Equal Employment Opportunity
                             Commission guidelines, it would notify proper officials at
                             Postal Service Headquarters not later than April 15, 2002,
                             and request that its policies be reviewed in light of Equal
                             Employment Opportunity Commission guidelines.

 Evaluation of               Management’s planned actions are responsive to the
 Management’s                recommendation and address the issues identified in the
 Comments                    report. We will follow up with Northeast Area officials to
                             determine what action has been taken regarding this issue.
                             We do not agree with management’s comments that the
                             recommendation is inconsistent with Postal Service policy.
                             Although, Postal Service policy does not directly address
                             the preventive measures to be taken when evidence of
                             sexual harassment is inconclusive, it does define training as
                             a preventive measure for ensuring managers are aware of
                             their role and responsibilities.




                                                  14
                                        Restricted Information
Sexual Harassment Prevention Measures                                              LH-AR-02-002
 in the Maine District



 Disciplined Managers        The Maine District did not exclude disciplined managers
 Received Pay for            from the Postal Service’s Pay for Performance Program.
 Performance                 Postal Service policy states an employee whose conduct is
                             clearly unacceptable may be excluded from the Pay for
                             Performance Program. The Postal Service describes
                             unacceptable behavior as “notoriously disgraceful or
                             immoral conduct, or other conduct prejudicial to the Postal
                             Service.” Equal Employment Opportunity Commission
                             guidelines also include a reduction in wages as an effective
                             corrective measure to stop harassment and ensure it does
                             not reoccur.

                             We determined that five of the seven employees disciplined
                             for sexual harassment, were eligible for the Postal Service’s
                             Pay for Performance Program. Our review of the payment
                             records disclosed that the five managers received incentive
                             awards ranging from $1,718 to $2,900.

                             A Northeast Area official told us the program is a broad
                             based group incentive that is tied to a manager’s
                             contribution to the success of the Postal Service. This
                             official also said managers would be excluded only if their
                             behavior is so “egregious” that it significantly detracts from
                             the success of the Postal Service. Because the Postal
                             Service has a “zero tolerance” policy regarding sexual
                             harassment, we believe this type of harassment should be
                             considered sufficient grounds for excluding an employee
                             from any pay for performance incentive awards.

 Recommendation	             We recommend the vice president, Northeast Area
                             Operations, direct the manager, Maine District, to implement
                             controls to improve the effectiveness of the sexual
                             harassment prevention program. Specifically, establish
                             controls to ensure:

                                        4.	 Employees disciplined for sexual harassment
                                            involvement are considered for exclusion from the
                                            Pay for Performance Program.




                                                   15
                                         Restricted Information
Sexual Harassment Prevention Measures                                         LH-AR-02-002
 in the Maine District




 Management’s                Management agreed with our finding and recommendation
 Comments                    and stated it would inform Executive and Administrative
                             Schedule employees by April 15, 2002, that employees,
                             who engage in unacceptable conduct, including sexual
                             harassment, will be considered for exclusion from the Pay
                             for Performance program. This notification will be done
                             annually, as long as the Pay for Performance program is in
                             effect.

 Evaluation of               Management’s planned actions are responsive to the
 Management’s                recommendation and should resolve the issues presented in
 Comments                    the report.




                                                  16
                                        Restricted Information
Sexual Harassment Prevention Measures                                              LH-AR-02-002
 in the Maine District




 Conclusions
                Sexual harassment can increase stress, reduce
                             management’s credibility with employees, reduce employee
                             morale and productivity, and can result in financial liability to
                             the Postal Service. The initiatives taken by the district
                             manager and implementation of the recommendations
                             outlined in this report, should help to ensure sexual
                             harassment is prevented and if harassment does occur,
                             should help mitigate negative impacts.

                             Although we were unable to determine whether following
                             the policies and procedures would have prevented the
                             monetary damages, full compliance with policies and
                             procedures might have allowed resolution of sexual
                             harassment complaints before they became formal.

 Overall                     Management stated that it was hopeful that the final report
 Management’s                would be useful to ensure that it has the best sexual
 Comments                    harassment prevention program in the Postal Service.
                             Management also stated it was pleased that the report
                             acknowledged the positive initiatives put in place to prevent
                             sexual harassment in the district, and specifically pointed
                             out the extraordinary measures the district manager took
                             after a jury decision awarded damages in 2001.
                             Management further stated that although the report was
                             “fundamentally factual” there was some relevant information
                             that was not included. For example, management stated
                             that most of the incidents cited in the report occurred more
                             than 5 years ago and that the current management team in
                             the area was passionate about eliminating sexual
                             harassment and that they have taken very strong proactive
                             measures to prevent future occurrences. Management also
                             stated that the draft did not acknowledge that sexual
                             harassment complaints in the Maine District had declined
                             steadily during the period of time covered in the report.




                                                  17
                                        Restricted Information
Sexual Harassment Prevention Measures                                                                    LH-AR-02-002
 in the Maine District


            APPENDIX A. OBJECTIVES, SCOPE AND METHODOLOGY



The OIG reviewed applicable laws, policies, procedures, and other documents including
the Equal Employment Opportunity Commission guidelines and Postal Service policies
and procedures for preventing sexual harassment in the workplace. We also reviewed
Postal Service policy regarding the Pay for Performance Program. In addition, we
reviewed General Accounting Office reports and previously issued OIG reports related
to sexual harassment issues. We interviewed an OIG official, Postal Service
Headquarters, Northeast Area, Maine District officials, and facility managers,
responsible for sexual harassment complaint processing.

To determine if adequate policies and procedures were in place to prevent sexual
harassment from occurring in the workplace, we identified 1990 and 1999 Equal
Employment Opportunity Commission key recommendations to agencies regarding
policies and procedures they should have in place to prevent sexual harassment and
reduce the risk of agency liability. We then reviewed the 1996 through 2001 Maine
District policies and procedures to see if the recommendations were included.

To determine the number of Maine District employees who received training in the
prevention of sexual harassment, we reviewed the Maine District training reports as of
January 4, 2002, for 6 of the 428 facilities located in the Maine District. We
concentrated our effort on the employees at these facilities because these were the
six facilities where the allegations of sexual harassment occurred for 16 of the formal
and informal cases filed in the Maine District for the period January 1, 1996, through
July 31, 2001.

To determine whether district managers were prompt and effective in addressing
informal sexual harassment complaints to avoid formal complaints and mitigate liability,
we reviewed information contained in the 16 formal and informal sexual harassment
complaint files identified above. Thirteen of the sixteen were formal complaints, and
the remaining three were informal. We reviewed formal complaint case files to
determine what actions may have been taken that could have prevented the complaints
from becoming formal. We originally identified 26 cases as follows:

       •	 5 closed sexual harassment civil cases14 provided by the Postal Service
          Northeast Area Law Office, which represented the closed civil cases in the
          Maine District from January 1, 1996, through July 31, 2001.

       •	 18 formal sexual harassment cases provided by the Northeast Area Equal
          Employment Opportunity manager representing the total number of cases filed in
          the Maine District from January 1,1996, through July 31, 2001.


14
     These are the five cases referred to in the member of Congress March 26, 2001, letter to the OIG.



                                                          18
                                                Restricted Information
Sexual Harassment Prevention Measures                                                               LH-AR-02-002
 in the Maine District



     •	 3 informal cases for the period January 1, 1996, through July 31, 2001, identified
        through the use of a statistical sampling methodology.15

From the 26 cases, we eliminated 10 from our review because 3 were duplicates, 4 had
been destroyed,16 2 were open, and 117 case was outside the scope of our audit.

Our review of the 16 cases included an analysis of the documentation to define the
timeline of when the employee made the initial complaint to their supervisor up to the
resolution of the complaint. In addition, we determined whether the case files contained
a record of management investigations or inquiries into the employees’ complaints.

To determine whether employees found responsible for sexual harassment received
discipline, we reviewed the Equal Employment Opportunity Commission guidelines and
Postal Service policies and procedures and identified the criteria regarding when
immediate and appropriate corrective actions should be taken. We reviewed the
16 case files identified above, and interviewed district officials to determine:

     •	 If the complaints were substantiated by either the Postal Service or an external
        court of law.

     •	 If the individuals found responsible for the sexual harassment violations received
        discipline.

Based on this information, we identified that sexual harassment was substantiated in
5 of the 16 cases, and 7 of the 11 employees identified as having involvement in these
5 cases were disciplined. We did not determine if the discipline received by the
seven employees was proportional to the seriousness of the offense.

To determine the impact on the Pay for Performance Program incentives for employees
who were disciplined for sexual harassment violations, we identified that five of the
seven employees were managers. We determined four managers received discipline in
FY 1999 and one in FY 2001. We then obtained FYs 1999 and 2001 pay for
performance payment information for the managers disciplined.




15
   We contacted 123 randomly selected facility managers, using a stratified universe of 428 sites. The list of
randomly selected sites was composed of all 10 sites with over 50 employees and 113 of the remaining 418 sites. All
three sexual harassment complaints identified in this sample came from a single site with over 50 employees.
16
   Four case files were destroyed in accordance with Equal Employment Opportunity Commission file retention
requirements.
17
   This is one of the five cases referred to in the member of Congress March 26, 2001, letter to the OIG.



                                                       19
                                             Restricted Information
Sexual Harassment Prevention Measures                            LH-AR-02-002
 in the Maine District


                  APPENDIX B. MANAGEMENT’S COMMENTS





                                                  20
                                        Restricted Information
Sexual Harassment Prevention Measures                            LH-AR-02-002
 in the Maine District




                                                  21

                                        Restricted Information
Sexual Harassment Prevention Measures                            LH-AR-02-002
 in the Maine District




                                                  22

                                        Restricted Information
Sexual Harassment Prevention Measures                            LH-AR-02-002
 in the Maine District




                                                  23

                                        Restricted Information
Sexual Harassment Prevention Measures                            LH-AR-02-002
 in the Maine District




                                                  24

                                        Restricted Information
